Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Dave Jackson, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 9/1/2021 deponent caused to be served 1 copy(s) of the within
Motion to Proceed In Forma Pauperis
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

By Regular 1st Class Mail

Brian H. Fletcher
Acting Solicitor General
Office of the Solicitor General
950 Pennsylvania Ave, N.W.
Washington, D.C. 20530

AUSA Robert Sobelman
Office of the Attorney General,
Southern District of New York
One St. Andrew's Plaza
New York, New York 10007

Tyrone Simmons
Inmate No 12A5564
Eastern NY Correctional Facility
30 Institution Road
P.O. Box 338
Napanoch, NY 12458-0338

Sworn to me this
Wednesday, September 1,
2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2025

Case Name: Tyrone Simmons v. United States (2)

Docket/Case No:
Index:

